                 A Test of the Private Sector’s Ability to
               Provide Tax Law Telephone Assistance Did
              Not Produce Sufficient Information to Support
                    a Competitive Sourcing Decision

                                     July 2005

                       Reference Number: 2005-30-049




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       July 8, 2005


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                     CHIEF, AGENCY-WIDE SHARED SERVICES



      FROM:                         Pamela J. Gardiner
                                    Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - A Test of the Private Sector’s Ability to
                                    Provide Tax Law Telephone Assistance Did Not Produce
                                    Sufficient Information to Support a Competitive Sourcing
                                    Decision (Audit # 200330043)


      This report presents the results of our review to evaluate whether the Internal Revenue
      Service (IRS) designed and administered the competitive sourcing1 Toll-Free Tax Law
      Services Test in a manner that would render a reliable assessment of a private vendor’s
      ability to provide comparable service, in terms of both access and quality, to taxpayers
      making tax law inquiries on the IRS toll-free telephone system. Competitive sourcing is
      one of five initiatives in the President’s Management Agenda for improving the
      management and performance of the Federal Government.
      In summary, we concluded the private-vendor Test had design deficiencies and the
      results were not reliable due to the significant limitations of the data collected.
      Consequently, the IRS did not derive the actual expected benefit of the $675,140 it paid
      the vendor that participated in the Test. The IRS also spent an undetermined amount of
      funds2 for professional consulting services to assist it in developing and evaluating the
      private-vendor Test.




      1
        Competitive sourcing is the process for determining whether a commercial activity will be performed by a public
      or private source. The goal of competitive sourcing is to achieve maximum value for tax dollars spent by allowing
      the private sector to propose its own methods for delivering goods and services.
      2
        The IRS advised us on September 21, 2004, that over $4.5 million had been expended on a multitask consulting
      contract that included the Toll-Free Tax Law Telephone Operation and other projects. However, the IRS did not
      capture the individual costs for each project.
                                                         2

Several factors led us to conclude that the Test had design deficiencies. First, the
framework of the IRS private-vendor Test lacked conformity with the goal of competitive
sourcing because the IRS tested the duplication of its Probe and Response Guide
(PRG) 3 method for answering tax law questions in a private-sector setting.
Second, the design of the Test created an inequitable comparison between the IRS
workforce, where 77 percent of the customer service representatives (CSR) had 2 or
more years’ experience in providing tax law services, and the vendor’s CSR staff that
had little or no previous tax law knowledge. The brevity of the 60-day Test period
precluded the vendor’s CSRs from reaching the learning curve point at which actual
experience would enhance performance.
Next, the IRS compromised the integrity of the Test by not developing an evaluation
plan that predefined essential performance measurement target values with which to
assess the project outcomes. Finally, the manner in which the private-vendor Test was
administered increased the challenges to performing a future competition. Unlike
service providers in an actual competitive marketplace, the IRS influenced its competitor
(i.e., the vendor) to duplicate its PRG method for answering tax law inquiries, which
negated some of the benefits of competition.
Although the IRS report4 on the Test included performance and telephone result metrics
for the vendor, neither the report nor the IRS Competitive Sourcing Program Decision
Document, issued in September 2004, stated the IRS’ conclusion about the vendor’s
capabilities in delivering telephone tax law assistance. In discussions related to our
report, IRS officials provided further clarification concerning the decision not to pursue a
Business Case Analysis (BCA) by stating, “The outcome of the feasibility test (lower
quality and significant taxpayer perception regarding privacy and confidentiality) coupled
with the considerable adverse impact on IRS employee morale and productivity as well
as the consolidation of the W&I [Wage and Investment Division] and SB/SE [Small
Business/Self-Employed Division] CAS [Customer Account Services] organization, were
factors which supported the decision to not pursue a BCA at this time.” IRS officials
also believe some benefits were realized for the funds spent. For example, the vendor
responded to tax law inquiries for 43 percent of the 227,390 calls initially routed to it.5
The calls answered by the vendor represented an increase in calls answered beyond
the volume the IRS planned to answer using its own resources.
We recommended the Deputy Commissioner for Operations Support and the
Commissioner, W&I Division, rescind the September 2004 decision and eliminate use of
the private-vendor Test results as justification for any decision regarding the merits of
using the Office of Management and Budget Circular No. A-76 competitive sourcing


3
  An IRS-developed intelligent system designed to assist customer service representatives in providing correct
answers to tax law inquiries and in maintaining a consistent level of customer and procedural accuracy.
4
  Test Study Summary Report: IRS Competitive Sourcing Program, Delivery of Tax Law Services, dated
September 14, 2004.
5
  The IRS report on the Test showed the vendor provided correct answers to only 44.6 percent of the callers it
assisted.
                                            3

process to determine the most efficient and cost-effective toll-free tax law telephone
services provider. To ensure any future studies of competitive sourcing of the Toll-Free
Tax Law Telephone Operation produce more reliable and useful results, we also
recommended the Chief, Agency-Wide Shared Services (AWSS), expand the IRS
Guide to Competitive Sourcing to require future studies to conform to a structured
research design model and data collection protocol; require creation of an evaluation
plan that predefines performance standards with target performance values and
composite scores that constitute success; involve the IRS Research Division in the
review of the design plan and data collection procedures, prior to performance of any
tasks; and require executive-level approval of the research design plan prior to
implementation.
To minimize the risk or appearance of unfairness in the sourcing process related to any
future study of the toll-free tax law telephone services, we recommended the
Commissioner, W&I Division, and the Chief, AWSS, require any future Evaluation and
Source Selection team members and Source Selection Official to sign a statement
certifying they have no personal impairments that inhibit their ability to make a fair and
impartial decision regarding the vendor proposals. We also recommended the
Commissioner, W&I Division, and Chief, AWSS, ensure any future solicitation related to
the Toll-Free Tax Law Telephone Operation contains no expressed or implied
requirements that private vendors use current IRS methodologies in proposing solutions
to the requirements in the solicitation.
Management’s Response: Management’s response was due on July 5, 2005. As of
July 6, 2005, management had not responded to the draft report.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General (Small Business and Corporate
Programs), at (631) 654-6028.
 A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
      Produce Sufficient Information to Support a Competitive Sourcing Decision




                                                Table of Contents


Background ............................................................................................... Page 1
The Private-Vendor Test Did Not Produce Reliable Results for
Deciding Whether to Open the Toll-Free Tax Law Telephone
Operation to Public-Private Competition ................................................... Page 3
         Recommendations 1 and 2: ...........................................................Page 15
         Recommendations 3 and 4: ...........................................................Page 16

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 17
Appendix II – Major Contributors to This Report ....................................... Page 18
Appendix III – Report Distribution List ....................................................... Page 19
Appendix IV – Outcome Measures............................................................ Page 20
  A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
       Produce Sufficient Information to Support a Competitive Sourcing Decision

                                  The Federal Activities Inventory Reform (FAIR) Act
Background
                                  of 19981 requires agencies to annually submit to the Office
                                  of Management and Budget (OMB) a listing of all activities
                                  performed that are either commercial or inherently
                                  Governmental in nature. According to the FAIR Act,
                                  activities that are commercial in nature are suitable for a
                                  public-private competition to ensure the best value is
                                  delivered to the American taxpayers.
                                  OMB Circular No. A-76, Performance of Commercial
                                  Activities, establishes policy and procedures for the Federal
                                  Government’s reliance on the private sector for essential
                                  commercial services. Competitive sourcing is one of five
                                  objectives of the President’s Management Agenda (PMA)
                                  for improving the management and performance of the
                                  Federal Government. Competitive sourcing is the process
                                  for determining whether Federal Government resources or
                                  the private sector can more efficiently and cost effectively
                                  provide services currently provided by the Federal
                                  Government.
                                  In Fiscal Year (FY) 2002, the Internal Revenue Service
                                  (IRS) identified its Toll-Free Tax Law Telephone Operation
                                  as a possible candidate for competitive sourcing. The IRS
                                  toll-free telephone system is a primary contact method
                                  millions of taxpayers choose when seeking answers to tax
                                  law questions or trying to resolve account issues involving
                                  refunds, balance due billing activity, and changes to the
                                  amount of tax owed. During the 2004 Filing Season,2 the
                                  IRS received nearly 13.6 million incoming calls for the
                                  individual income tax law services offered on its
                                  1-800-829-10403 toll-free telephone line.
                                  To evaluate whether the Toll-Free Tax Law Telephone
                                  Operation was a viable candidate for competitive sourcing,


                                  1
                                    Pub. L. No. 105-270, 112 Stat. 2382.
                                  2
                                    The filing season is the period from January through mid-April when
                                  most individual income tax returns are filed. All references to the
                                  2004 Filing Season made in this report, unless otherwise specified, are
                                  for the period January 2 to April 16, 2004.
                                  3
                                    The primary toll-free number called by customers with tax law
                                  questions. The IRS screens each call to this number to determine the
                                  topic of the inquiry and uses intelligent call management software to
                                  route the call to an assistor trained in that tax law topic.
                                                                                                   Page 1
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                the IRS decided to subject the task to a test of vendor
                                capability to determine whether a vendor could deliver
                                equal or superior quality in responding to tax law inquiries
                                compared to the level of quality achieved by IRS resources.
                                A second objective was to assess the public’s reaction to
                                receiving responses to tax law inquiries from a commercial
                                vendor rather than the IRS. The IRS awarded a contract on
                                August 28, 2003, to the vendor that offered the lowest bid
                                of $675,140. The selected vendor was responsible for
                                handling approximately 10 percent of the incoming tax law
                                calls received by the IRS during the 60-day period from
                                February 16 through April 16, 2004.
                                This audit was performed in accordance with Government
                                Auditing Standards (GAS) during the period
                                September 2003 through August 2004.4 The IRS
                                management official responsible for the task we audited did
                                not provide sufficient, competent, and relevant evidence to
                                support the reliability of the approach the IRS used to
                                design, administer, and evaluate the private-vendor
                                Toll-Free Tax Law Services Test. Therefore, to comply
                                with GAS in our evaluation of the design and administration
                                of the Test, we developed evaluation criteria using
                                applicable Federal Government regulations, policies, and
                                procedures along with standard business and research test
                                practices.
                                We applied Federal Government regulations and practices
                                relative to competitive sourcing because the stated goal of
                                the IRS study of the Toll-Free Tax Law Telephone
                                Operation was to determine whether it was a viable
                                candidate for the competitive sourcing process under the
                                OMB Circular No. A-76 initiative. We applied standard
                                project management practices because the composition of
                                the private-vendor Test was consistent with the standard

                                4
                                 To perform this audit, we interviewed IRS staff and/or analyzed
                                documentation from the Wage and Investment Division Customer
                                Account Services offices in Atlanta, Georgia, and Dallas, Texas; the
                                Office of Competitive Sourcing in Washington, D.C., and
                                Brooklyn, New York; the Office of Procurement in
                                Oxon Hill, Maryland; and the Agency-Wide Shared Services office in
                                Austin, Texas. We also interviewed staff and reviewed available
                                documentation at the vendor’s call center in Cumberland, Maryland.

                                                                                               Page 2
    A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
         Produce Sufficient Information to Support a Competitive Sourcing Decision

                                    definition of a project5 under the project management
                                    discipline. We applied standard research test practices used
                                    by Federal Government agencies and private industry
                                    because they are widely recognized best practices for
                                    performing valid research tests that produce reliable and
                                    defensible results.
                                    Detailed information on our audit objective, scope, and
                                    methodology is presented in Appendix I. Major
                                    contributors to the report are listed in Appendix II.
                                    In September 2004, the IRS Competitive Sourcing Program
The Private-Vendor Test Did Not
                                    Decision Document regarding the Toll-Free Tax Law
Produce Reliable Results for
                                    Services Test announced the following: “The Deputy
Deciding Whether to Open the
                                    Commissioner Support Operations decided not to pursue a
Toll-Free Tax Law Telephone
                                    Business Case Analysis [BCA]6 at this time due to the
Operation to Public-Private
                                    re-engineering/restructuring initiative recently started to
Competition
                                    merge the SB/SE [Small Business/Self-Employed Division]
                                    CAS [Customer Account Services] organization into W&I
                                    [Wage and Investment Division].”
                                    Although the IRS report7 on the Test included performance
                                    and telephone result metrics for the vendor, neither the
                                    report nor the decision document stated the IRS’ conclusion
                                    about the vendor’s capabilities in delivering telephone tax
                                    law assistance. The draft report of the Test results presented
                                    to the IRS Deputy Commissioner for Operations Support in
                                    August 2004 stated, “The Competitive Sourcing Office
                                    recommends that we complete the Business Case Analysis
                                    (BCA) prior to any final decision. The Business Owner,
                                    W&I, recommends conducting a subsequent test.” In a post
                                    operational analysis report submitted by the vendor that
                                    participated in the Test, it concluded that outsourcing the
                                    Toll-Free Tax Law Telephone Operation was feasible based
                                    upon the vendor’s positive ratings in four of the five quality


                                    5
                                      A project is a temporary work condition involving a series of related
                                    tasks that require multiple resources to reach a predetermined goal.
                                    6
                                      A BCA is used to manage business process improvement activities
                                    through examining the benefits and risks of a proposed initiative. An
                                    accompanying experimental project to test the viability of an approach
                                    might be justified when the project involves substantial changes to
                                    service delivery and affects many stakeholders.
                                    7
                                      Test Study Summary Report: IRS Competitive Sourcing Program,
                                    Delivery of Tax Law Services, dated September 14, 2004.
                                                                                                     Page 3
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                factors measured by the IRS and the improved performance
                                in the one factor that did not meet expectations.
                                In discussions related to our report, IRS officials provided
                                further clarification concerning the September 2004
                                decision by stating, “The outcome of the feasibility test
                                (lower quality and significant taxpayer perception regarding
                                privacy and confidentiality) coupled with the considerable
                                adverse impact on IRS employee morale and productivity as
                                well as the consolidation of the W&I and SB/SE CAS
                                organization, were factors which supported the decision to
                                not pursue a BCA at this time.”
                                However, based on our review, we concluded the
                                private-vendor Test had design deficiencies and the results
                                were not reliable due to the significant limitations of the
                                data collected. Consequently, the IRS did not derive the
                                actual expected benefit of the $675,140 it paid the vendor
                                that participated in the Test. The IRS also spent an
                                undetermined amount of funds8 for professional consultant
                                services to assist it in developing and performing the study
                                of the Toll-Free Tax Law Telephone Operation along with
                                the development and evaluation of the private-vendor Test.
                                IRS officials believe some benefits were realized for the
                                funds spent. For example, the vendor responded to tax law
                                inquiries for 43 percent of the 227,390 calls initially routed
                                to it.9 The calls answered by the vendor during the
                                2004 Filing Season represented an increase in calls
                                answered beyond the volume the IRS planned to answer
                                using its own resources.
                                The private-vendor Test could have been better designed
                                to be consistent with the fundamental goal of competitive
                                sourcing
                                The goal of competitive sourcing as established by Federal
                                Government policy and the PMA is to achieve maximum
                                value for tax dollars spent by offering the private sector an


                                8
                                  The IRS advised us on September 21, 2004, that over $4.5 million had
                                been expended on a multitask consulting contract that included the
                                Toll-Free Tax Law Telephone Operation and other projects. However,
                                the IRS did not capture the individual costs for each project.
                                9
                                  The IRS report on the results of the Test showed the vendor provided
                                correct answers to only 44.6 percent of the callers it assisted.
                                                                                               Page 4
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                opportunity to propose its own methods for delivering goods
                                and services defined by Federal Government requirements.
                                The framework of the IRS project did not conform to this
                                concept because the IRS tested the duplication of its Probe
                                and Response Guide (PRG)10 method for answering tax law
                                inquiries in a private-sector setting. The IRS report on the
                                Test states, “The mandated use of the Probe and Response
                                Guide had an impact on the accuracy rate. The vendor did
                                not have the opportunity to develop their own probe and
                                response system.”
                                Prior to initiating the Test, the IRS surveyed eight
                                private-sector vendors offering a wide range of customer
                                service support to their clients. The IRS report on the
                                survey stated, “An assessment was performed on the
                                feasibility of duplicating the tax law and Area Distribution
                                Center11 telephone operations in a vendor setting. The
                                industry leaders were surveyed for interest and capabilities
                                in providing tax law services for the IRS.” Although seven
                                vendors responded to the survey expressing interest in the
                                opportunity to provide telephone tax law services for the
                                IRS, none had any experience in offering this specialized
                                service.
                                The project management discipline contains several
                                business tools that can be employed to assist management in
                                planning, implementing, and evaluating a project. A
                                feasibility study12 and BCA are structured analysis
                                methodologies within this discipline. The project plan is a
                                fundamental element of the project management process. It
                                establishes the project boundaries, support structures,
                                relationships between issues, and detailed steps to
                                accomplish the intended goals. The application of standard
                                project management techniques in the planning process

                                10
                                   An IRS-developed intelligent system designed to assist customer
                                service representatives in providing correct answers to tax law inquiries
                                and in maintaining a consistent level of customer and procedural
                                accuracy.
                                11
                                   An Area Distribution Center is a multimedia storage facility where
                                internal and external requests for published products are processed.
                                12
                                   A feasibility study is a structured methodology for documenting the
                                operational, economical, and technical analysis of a business problem.
                                It includes a determination of whether the problem can be solved
                                effectively.
                                                                                                  Page 5
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                could have assured the development of a reliable,
                                systematic, goal-oriented test approach that connected the
                                objective and scope of the Toll-Free Tax Law Services Test
                                to the overarching objectives of the W&I Division strategic
                                plan and the competitive sourcing initiative.
                                Although the IRS defined the objective of the Test and
                                estimated its Toll-Free Tax Law Telephone Operation
                                included 1,100 Full-Time Equivalents (FTE),13 it did not
                                formalize plans for implementing the Test. In discussions
                                about the Test, the project manager confirmed the IRS did
                                not formally document the project management framework
                                and other key elements specific to its implementation.
                                Consequently, the project objective was never directly
                                linked to the goal of the competitive sourcing initiative.
                                To properly align the private-vendor Test with the goals of
                                competition14 and competitive sourcing,15 the scope of work
                                needed to include the assembling of sufficient information
                                for an unbiased assessment of a vendor’s alternative
                                methods for delivering toll-free tax law telephone services.
                                The planned project outcomes should have included the
                                demonstration of whether service delivery could be
                                improved by the competitive sourcing process. By not
                                using accepted project management tools, the project was
                                put on a course that would not likely provide relevant
                                evidence for decision-making purposes.
                                The design of the private-vendor Test created an
                                inequitable comparison between the IRS and a novice in
                                providing tax law services
                                The IRS contract with the selected vendor was awarded on
                                August 28, 2003, with a planned Test start date of


                                13
                                   An FTE is a measure of labor hours in which 1 FTE is equal to
                                8 hours multiplied by the number of compensable days in a particular
                                fiscal year. For FY 2004, 1 FTE was equal to 2,096 labor hours.
                                14
                                   The term competition as defined in this report is, “the effort of two or
                                more parties acting independently to secure the business of a third party
                                by offering the most favorable terms.”
                                15
                                   Competitive sourcing is holding public-private competitions that
                                compare the performance of a Federal Government organization to that
                                of a private sector or other non-Federal organization. Federal
                                Acquisition Council’s Manager’s Guide to Competitive Sourcing (dated
                                October 2, 2003).
                                                                                                   Page 6
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                February 16, 2004. The Statement of Work (SOW)16
                                required the vendor to provide sufficient staff trained in
                                11 tax law topic areas ranging from basic procedural and
                                filing requirement issues to very complex individual
                                return issues such as installment sales. Five of the
                                11 tax law topics form the fundamental building blocks for
                                the more complex topics. The 65 customer service
                                representatives (CSR) the vendor assigned to this project did
                                not initially possess the body of knowledge needed to fulfill
                                the terms of the contract. In addition to hiring and training
                                the required CSR staff, the vendor had to establish and train
                                its quality assurance team, purchase the necessary
                                telecommunications and computer equipment, establish
                                connectivity to the IRS, and meet the requirements for
                                providing telephone system call data in a format comparable
                                to the IRS’ telephone system data.
                                The IRS’ August 2003 risk assessment stated, “The
                                timeframe for vendor ramp up is considerably aggressive for
                                the complex scope of the test study. Vendors have not
                                previously handled tax law subject matter.” Expertise in tax
                                law was the most critical comparability factor for weighing
                                the success or failure of the CSRs that responded to tax law
                                inquiries from the public. The IRS allowed the vendor only
                                5½ months to prepare for and implement the Test.
                                Of the approximately 3,35917 IRS CSRs to which the
                                vendor’s performance was compared, about
                                2,600 (77 percent) had 2 or more years’ experience in tax
                                law subject matter while about 350 CSRs were newly hired
                                for the 2004 Filing Season. Within the IRS, new CSRs are
                                initially trained in only 2 of the 11 tax law topics included in
                                the scope of the Test and are allowed time to gain
                                proficiency in those topics before advancing to other topics
                                in their second year. The brevity of the 60-day Test period
                                precluded the vendor’s CSRs from reaching the learning

                                16
                                   The SOW is a description of the Federal Government’s technical
                                requirements and the work to be performed by the contractor. It
                                specifies the terms of the contract and is the standard for measuring
                                contractor performance.
                                17
                                   The IRS advised that in calculating the number of CSRs with 2 or
                                more years’ experience, the CSRs that transferred to other positions and
                                returned to the CAS were included in more than 1 entry on duty date
                                group and combined in the total.
                                                                                                Page 7
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                curve point at which the training and actual experience
                                would enhance performance. Therefore, it was unrealistic
                                to expect the vendor’s group of CSRs newly trained in
                                11 tax law topics to effectively perform at a level that would
                                approach parity with that of the IRS’ experienced CSRs.
                                These events created unfair Test conditions with a high
                                probability for unfavorable results.
                                The IRS could have accomplished a reliable comparison of
                                the private sector’s capabilities and competence in providing
                                tax law assistance to the American public by using an
                                experimental test design commonly used by Federal
                                Government and private-sector organizations that perform
                                research studies. In an experimental test design, relevant
                                characteristics of the control group18 and experimental
                                group19 populations should be similar before a variable
                                condition is applied to the experimental group. The
                                comparability factor is critical because the performance of
                                the control group usually serves as a baseline for measuring
                                the effect of variable conditions on the experimental group.
                                If an experimental test design had been used, the vendor that
                                participated in the IRS Test would have represented the
                                experimental group. In this instance, the only viable control
                                group the IRS could have formed for making a fair
                                comparison to the vendor’s group would have been from the
                                CSRs newly hired in October 2003. The scope of the tax
                                law topics included in the vendor’s responsibilities would
                                have been limited to the topics handled by the IRS control
                                group. The variable conditions applied to the experimental
                                group would have consisted of the vendor’s own methods
                                and procedures for delivering service to the public.
                                The IRS could have taken reasonable actions to prevent the
                                formation of Test parameters that produced skewed results
                                if it had properly applied the knowledge gained from its
                                market research and obtained essential staffing information
                                from the vendor after the contract was awarded. However,
                                in its written response to our request for information about


                                18
                                   The control group is the group in an experimental study that does not
                                receive the experimental condition.
                                19
                                   The experimental group is the group in an experimental study that
                                receives the experimental condition.
                                                                                                 Page 8
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                the tax law skill level of the vendor staff, the IRS stated, “It
                                is not a requirement of the contract for the vendor to give us
                                information about the people they hired.”
                                The Test reliability was compromised because the IRS
                                emphasized use of its methodology for accurately
                                responding to tax law inquiries
                                The SOW for the private-vendor Test established the
                                following requirement: “The service provider Quality
                                Control Plan shall include a method for monitoring,
                                measuring, and maintaining: Customer Accuracy,
                                Regulatory Accuracy, Procedural Accuracy.” The SOW
                                also stipulated the IRS would perform a quality review of
                                the services provided by the vendor using the same methods
                                it employs to review the quality of its own Toll-Free Tax
                                Law Telephone Operation. In measuring its own Operation
                                for procedural accuracy, the IRS rates its CSRs on their use
                                of the PRG. Thus, the SOW implied the vendor’s adherence
                                to the PRG would be an integral factor in the rating of its
                                performance in accurately responding to tax law inquiries.
                                The IRS visited the vendor in January 2004 and stated the
                                following in its evaluation of the vendor’s readiness to
                                implement the test: “It will be critical to the service
                                provider’s success to ensure employees receive a maximum
                                amount of practice in using the on-line guide before taking
                                live calls.” The IRS emphasized vendor use of the PRG
                                even though some of its CSRs seemed to encounter
                                problems using it. During the 2004 Filing Season, the
                                customer accuracy rates achieved by the IRS declined from
                                81 percent to 79 percent when compared to the 2003 Filing
                                Season. On April 2, 2004, the IRS’ assessment regarding its
                                latest revisions to the PRG stated, “Our revisions to the
                                Probe and Response Guide in FY 2003 have not enhanced
                                the usability of this tool as we anticipated. We have begun
                                the process of redesigning this critical tool to make it easier
                                for our CSRs to complete all the needed probes and to
                                provide correct answers.”
                                The IRS report on the Test showed the vendor achieved a
                                customer accuracy rate20 of only 44.6 percent during the

                                20
                                 The customer accuracy rate was a measure of whether the taxpayer
                                who called received a correct and complete response.
                                                                                            Page 9
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                60-day Test period. Conversely, the IRS report showed the
                                vendor’s performance ranged from 89.9 percent to
                                99.8 percent in other quality measures (i.e., regulatory
                                accuracy, procedural accuracy, timeliness, and
                                professionalism).21 The vendor’s performance in these
                                measures was comparable to that of the IRS and was above
                                the IRS’ performance goals set in two areas.
                                Overall, the private-vendor Test did not produce new
                                knowledge on the merits of competitively sourcing the
                                Toll-Free Tax Law Telephone Operation. In addition, the
                                IRS missed the opportunity to benchmark its quality control
                                methods against that of the private sector. Under genuine
                                competitive test conditions, the vendor would have
                                developed its own method for maintaining consistency in
                                providing accurate responses to tax law inquiries and for
                                measuring performance in accordance with agency
                                requirements. A test structured in this manner would have
                                had the added benefit of providing valuable information
                                about a private vendor’s capacity to systematically furnish
                                complete and accurate answers to tax law inquiries.
                                The integrity of the Test was compromised because the
                                IRS did not properly predefine essential performance
                                measurement target values with which to evaluate the
                                private-vendor Test
                                We requested the IRS provide its plan for evaluating the
                                results of the private-vendor Test and the adjoining study.
                                The IRS never provided a formal evaluation plan for our
                                assessment. Instead, its written reply to one request stated,
                                “We’ll be reviewing customer accuracy, performance
                                metrics for calls answered, and customer perception. There
                                is no pre-determined ‘passing grade’ but rather our decision
                                will be made based on the performance of the service
                                provider.”
                                Sound project management practices require that the initial
                                framework of a project and any associated test(s) include


                                21
                                  Regulatory accuracy measures those attributes that are required to be
                                covered per regulations; procedural accuracy measures internal IRS
                                requirements; timeliness measures the ability to handle the call timely;
                                and professionalism measures the courtesy and professionalism of the
                                CSR.
                                                                                                Page 10
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                verifiable quantitative and qualitative performance
                                evaluation criteria. The performance evaluation criteria
                                should define the performance measurement target values
                                and any appropriate composite scores that constitute
                                achievement of a desired goal. This provides the basis for
                                an objective assessment of the outcomes of the project
                                activities and for an effective evaluation of potential
                                alternatives.
                                The IRS design of the private-vendor Test did not include
                                binding contract requirements with the vendor for
                                achievement of any specific performance metric target
                                values. In its written statement concerning the reason for
                                not adhering to performance-based contracting methods,22
                                the IRS stated, “. . . so that at the conclusion of the test, we
                                would be comparing like performance.” We believe this
                                position did not negate the need for performance standards
                                but, rather, required the development of measurable criteria
                                with predefined target values and appropriate threshold
                                composite scores to ensure an equitable comparison.
                                The IRS has developed and classified the following
                                corporate performance indicators as critical to determining
                                its success in providing high-quality service to each toll-free
                                tax law caller:
                                •    CSR Level of Service (LOS) – measures the relative
                                     success rate of taxpayers seeking assistance from a live
                                     assistor.
                                •    Customer Accuracy – measures the percentage of
                                     taxpayers who received the correct answers to their tax
                                     law inquiries.
                                •    Assistor Calls Answered – measures the volume of
                                     calls that received assistance from a CSR.




                                22
                                  In procuring services, the Federal Acquisition Regulation,
                                48 C.F.R. pt 1-53 (2002), requires the use of performance-based
                                contracts with measurable performance standards.
                                                                                              Page 11
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                •    Timeliness – measures responsiveness to callers in
                                     using elements of time controlled by the CSR
                                     (i.e., talk time, hold time, and wrap time).23
                                •    Professionalism – measures the effectiveness of the
                                     CSR communication skills.
                                •    Customer Satisfaction and Dissatisfaction – survey
                                     results indicate the caller’s overall satisfaction with the
                                     service provided.
                                Management officials at the IRS advised us they had not
                                planned to compute the CSR LOS due to the difference in
                                the way incoming calls were handled by the vendor. Since
                                the CSR LOS is considered one of the most critical
                                quantitative performance measures for determining the IRS’
                                success, it was critical for the IRS to develop a practical
                                method to assess the outcome of this and other vital
                                performance information.
                                The vendor’s sampling techniques and data
                                compatibility issues negated the reliability of the
                                information collected during the Test
                                Although the IRS computed qualitative indicators
                                (e.g., customer accuracy, professionalism) for the tax
                                law services provided by the vendor, the calls selected by
                                the vendor’s system for the IRS’ review did not represent a
                                statistically valid sample. Application of a standard
                                statistical sampling methodology was required to ensure all
                                calls had an equal opportunity for inclusion in the sample
                                and to assure the sample results were objective.
                                However, the vendor could not provide reasonable
                                assurance of the validity of the sampling method because
                                the call-recording system used a sampling procedure that
                                was proprietary to the manufacturer. The sampling
                                procedure as described by the vendor indicated a valid
                                sample of calls had not been recorded from the universe of
                                calls received during the first 43 days of the 60-day Test
                                period. Although a different sampling procedure was

                                23
                                  Talk time is the time a CSR spends with a caller during a transaction,
                                hold time is the time a caller spends on hold after talking to a CSR, and
                                wrap time is the time a CSR spends performing call-related work after
                                the call is over.
                                                                                                Page 12
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                employed during the last 17 days of the Test period, there
                                was no reasonable assurance that this method yielded a
                                statistically valid sample.
                                The IRS report on the Test states, “Per the Statistics of
                                Income Division, sample reliability remained an issue
                                throughout the test period for a variety of reasons which
                                impacted on the actual quality as determined during the
                                test.” Therefore, the IRS’ quality review results cannot be
                                considered a reliable indicator of the vendor’s performance
                                in providing accurate answers to tax law inquiries.
                                Prior to the start of the Test, the IRS did not confirm
                                whether the vendor could actually produce call detail data24
                                in a format that met its specifications. An IRS assessment
                                of the vendor’s performance stated the vendor did not
                                provide accurate data in the format needed to produce
                                performance data comparable to its own corporate
                                performance metrics. We could not determine the cause of
                                the call detail data incompatibilities due to conflicting
                                information received from the IRS and the vendor.
                                Guidelines for planning and performing valid research
                                studies and tests are needed
                                The Office of Competitive Sourcing has drafted the IRS
                                Guide to Competitive Sourcing for accomplishing required
                                tasks within the IRS Competitive Sourcing Program. In
                                August 2004, we reported, “Better resource planning is
                                needed before starting the competitive sourcing process.”25
                                The report explained that the IRS needs to consider how
                                projects should be prioritized based on resources and the
                                likelihood of savings and improved service before
                                nominating activities for a BCA. The report further stated,
                                “. . . the guide does not include any procedures about
                                nominating activities for a Business Case Analysis.
                                Without procedures for nominating activities, the IRS may
                                commit resources that are not available and may not be
                                nominating the best candidates for the program.”


                                24
                                   Call detail data is the record of call event information that the
                                telephone system stores for each call transaction.
                                25
                                   The Office of Competitive Sourcing Needs to Improve the Planning,
                                Scheduling, and Costing of Projects (Reference Number 2004-10-146,
                                dated August 2004).
                                                                                             Page 13
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                Although the January 2004 draft of the IRS Guide to
                                Competitive Sourcing describes the four phases of the IRS’
                                competitive sourcing process, the Guide does not define
                                specific methods to be employed to produce statistically
                                valid and reliable research data. Research and data
                                collection protocols are necessary to assure consistency and
                                objectivity in the data collection and evaluation processes.
                                Without these research protocols, sufficient and competent
                                evidence is not available for informed decision making.
                                Challenges to performing a future competition are
                                increased by the manner in which the private-vendor
                                Test was administered
                                Unlike service providers in an actual competitive
                                marketplace, the IRS influenced its competitor (i.e., the
                                vendor) to duplicate the IRS’ PRG method for answering
                                tax law inquiries, which negated some of the benefits of
                                competition. In addition, the IRS did not properly predefine
                                its plan for evaluating the outcomes of the private-vendor
                                Test. The IRS needs to structure any future public-private
                                competition in a manner that promotes fairness and assures
                                objectivity in the evaluation process to protect the integrity
                                of the sourcing process.
                                The Federal Acquisition Regulation prescribes guidelines
                                for the purchase of products and services and promotes the
                                exercise of common sense, good judgment, and sound
                                discretion to prevent unfairness in the acquisition process.
                                The Commercial Activities Panel (CAP) 26 has adopted and
                                recommended a set of principles to guide sourcing decisions
                                in the Federal Government. In an April 2002 report,27 the
                                CAP stated that the use of a clear, transparent, and
                                consistently applied sourcing process is the key to ensuring
                                integrity and creating trust in the process. The CAP
                                concluded accountability provides assurance that the
                                sourcing process is efficient and effective. Accountability
                                was characterized as requiring defined objectives, processes,

                                26
                                   A group of subject matter experts convened by the Comptroller
                                General of the United States to improve the current sourcing framework
                                and processes so they reflect a balance among taxpayer interests,
                                Federal Government needs, employee rights, and contractor concerns.
                                27
                                   CAP, Improving the Sourcing Decisions of the Government, Final
                                Report dated April 2002.
                                                                                             Page 14
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                and controls with methods to track success or deviation
                                from objectives. The CAP also described fairness as
                                ensuring competing parties receive comparable treatment,
                                which includes access to relevant information.
                                At a minimum, any future solicitation related to the
                                Toll-Free Tax Law Telephone Operation should provide
                                other interested vendors access to the same information and
                                materials given to the vendor that participated in the Test.
                                The SOW should be performance based and include
                                relevant qualitative and quantitative performance standards
                                with target performance values and appropriate composite
                                scores that indicate success. Also, the IRS should exercise
                                necessary precautions to prevent personnel with any bias
                                regarding the outcome of the private-vendor Test from
                                participating in the evaluation and source selection decisions
                                on any future competition related to the Operation.

                                Recommendations

                                1. The Deputy Commissioner for Operations Support and
                                   the Commissioner, W&I Division, should rescind the
                                   September 2004 decision and eliminate use of the
                                   private-vendor Test results as justification for any
                                   decision regarding the merits of using the OMB
                                   Circular No. A-76 competitive sourcing process to
                                   determine the most efficient and cost-effective toll-free
                                   tax law telephone services provider.
                                Management’s response: Management’s response was due
                                on July 5, 2005. As of July 6, 2005, management had not
                                responded to the draft report.
                                2. The Chief, Agency-Wide Shared Services (AWSS),
                                   should expand the IRS Guide to Competitive Sourcing to
                                   define minimum standards for performing reliable and
                                   valid research studies and tests to prevent inefficient use
                                   of Federal Government funds in the performance of
                                   future studies/tests. These standards should require use
                                   of a structured research design model and data collection
                                   protocol that are most appropriate for meeting the
                                   objectives of the project and require creation of an
                                   evaluation plan that predefines performance standards
                                   with target performance values and composite scores
                                                                                      Page 15
A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
     Produce Sufficient Information to Support a Competitive Sourcing Decision

                                    that constitute success. The research standards should
                                    also require involvement by the IRS Research Division
                                    in the review of the research design plan and data
                                    collection procedures, prior to the performance of any
                                    tasks, and executive-level approval of the research
                                    design plan prior to implementation.
                                To minimize the risk or appearance of unfairness in the
                                competitive sourcing process related to any future study of
                                the toll-free tax law telephone services, the Commissioner,
                                W&I Division, and the Chief, AWSS, should:
                                3. Require any future Evaluation and Source Selection
                                   team members and Source Selection Official to sign a
                                   statement certifying they have no personal impairments
                                   that inhibit their ability to make a fair and impartial
                                   decision regarding the vendor proposals.
                                4. Ensure any future solicitation related to the Toll-Free
                                   Tax Law Telephone Operation contains no expressed or
                                   implied requirements that private vendors use current
                                   IRS methodologies in proposing solutions to the
                                   requirements in the solicitation.




                                                                                     Page 16
     A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
          Produce Sufficient Information to Support a Competitive Sourcing Decision

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the Internal Revenue Service (IRS)
designed and administered the competitive sourcing Toll-Free Tax Law Services Test in a
manner that would render a reliable assessment of whether a private vendor can provide
comparable service, in terms of both access and quality, to taxpayers making tax law inquiries on
the IRS toll-free telephone system. To accomplish this objective, we:
I.        Evaluated whether the framework of the private-vendor Test was aligned with the
          fundamental goal of the competitive sourcing initiative.
          A. Reviewed the project activities as defined in the Statement of Work (SOW)1 and other
             project documentation for consistency with Federal Government policy, procedures,
             and goals set for competitive sourcing in Office of Management and Budget
             Circular No. A-76, Performance of Commercial Activities; the President’s
             Management Agenda; the Federal Acquisition Regulation;2 and the Federal
             Acquisition Council’s Manager’s Guide to Competitive Sourcing.
II.       Assessed whether the IRS applied standard project management, business case, and/or
          research study methodologies in designing the private-vendor Test.
III.      Evaluated whether the private-vendor Test was implemented and performed in a manner
          that provided reasonable assurance the Test results would be bias free.
          A. Assessed whether the IRS made an equitable comparison between its workforce and
             the vendor’s staff in terms of tax law skills and experience.
          B. Assessed whether performance measures and target values were properly established
             and whether valid performance data were obtained to objectively judge the success or
             failure of the Test.
          C. Discussed implementation and performance issues with officials at the IRS and the
             participating vendor.




1
  The SOW is a description of the Federal Government’s technical requirements and the work to be performed by
the contractor. It specifies the terms of the contract and is the standard for measuring contractor performance.
2
  48 C.F.R. pt 1-53 (2002).




                                                                                                          Page 17
 A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
      Produce Sufficient Information to Support a Competitive Sourcing Decision

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General (Small Business and Corporate
Programs)
Philip Shropshire, Director
William E. Stewart, Audit Manager
Una K. Smith, Senior Auditor
Ali Vaezazizi, Auditor




                                                                                        Page 18
 A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
      Produce Sufficient Information to Support a Competitive Sourcing Decision

                                                                           Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Competitive Sourcing OS:A:C
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Procurement OS:A:P
Deputy Director, Procurement OS:A:P
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Wage and Investment Division SE:W
       Chief, Agency-Wide Shared Services OS:A
       Director, Competitive Sourcing OS:A:C




                                                                                 Page 19
    A Test of the Private Sector’s Ability to Provide Tax Law Telephone Assistance Did Not
         Produce Sufficient Information to Support a Competitive Sourcing Decision

                                                                                   Appendix IV


                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•    Inefficient Use of Resources – Actual; $675,140 (see page 3).
Methodology Used to Measure the Reported Benefit:
This is the actual value of the contract awarded to test the viability of a commercial vendor to
provide toll-free tax law telephone services. The Toll-Free Tax Law Services Test results
produced no valid information that would support a decision for or against opening the Internal
Revenue Service Toll-Free Tax Law Telephone Operation to competition.




                                                                                          Page 20
